No. 19-731
IN THE

Supreme Court of the United States
PANCHO’S LLC,

Petitioner,
v.
JAMES T. HUGHES, MARGARET RITCHIE, JOYCE
ROBINSON, TERRI RANSON, JAMES MCCOY,
MARSHA GEYER, KEITH KING, JUDITH
MILLER, in their official and individual capacities as
members of the JACKSON COUNTY BOARD OF
HEALTH, JONATHAN GRAZIANI, Inspector for the
JACKSON COUNTY HEALTH DEPARTMENT, SUSAN
HOSAFLOOK, Administrator of the JACKSON COUNTY
HEALTH DEPARTMENT, JACKSON COUNTY BOARD
OF HEALTH, by corporate and politic, JOHN DOE #1, in
individual and official capacity, and JOHN DOE #2, in
individual and official capacity,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE

SUPREME COURT OF APPEALS OF WEST VIRGINIA
PETITIONER’S REPLY TO RESPONDENTS’
BRIEF IN OPPOSITION
GEORGE R. HIGINBOTHAM, JR.

Counsel of Record

SEAN J. SAWYER
FORREST A. BOWEN
HIGINBOTHAM & HIGINBOTHAM, PLLC
P.O. Box 567
Fairmont, West Virginia 26554
(304) 366-2900
petehigi@gmail.com

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

No. 19-731
IN THE

Supreme Court of the United States
PANCHO’S LLC,

Petitioner,

v.
JAMES T. HUGHES, MARGARET RITCHIE,
JOYCE ROBINSON, TERRI RANSON, JAMES
MCCOY, MARSHA GEYER, KEITH KING, JUDITH
MILLER, in their official and individual capacities
as members of the JACKSON COUNTY BOARD OF
HEALTH, JONATHAN GRAZIANI, Inspector for the
JACKSON COUNTY HEALTH DEPARTMENT,
SUSAN HOSAFLOOK, Administrator of the
JACKSON COUNTY HEALTH DEPARTMENT,
JACKSON COUNTY BOARD OF HEALTH, by
corporate and politic, JOHN DOE #1, in individual
and official capacity, and JOHN DOE #2, in
individual and official capacity,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF APPEALS OF WEST VIRGINIA
PETITIONER’S REPLY TO RESPONDENTS’
BRIEF IN OPPOSITION

1

REPLY ARGUMENT
1. 2005 FEDERAL FOOD CODE PROVIDES
FOR DUE PROCESS OF LAW, AND THE
CONSTITUTIONAL
PROTECTIONS
PROVIDED THEREIN ARE NOT A
GUIDELINE BUT ARE THE LIBERTY AND
PROPERTY INTERESTS NECESSARY TO
SATISFY PAUL V. DAVIS, 424 U.S. 693
(1976).
Respondents have asserted that the particular
provisions of the 2005 Federal Food Code providing
constitutional guarantees are only a “guideline.” To
suggest that perhaps due process of law is only a
guideline is a bit of a stretch, but it is consistent with
the enforcement officer’s opinion that the
Constitution did not protect the interests of a
restaurant business subject to Health Department
jurisdiction. [Appendix F, Admission 10, pg. 95(a).]
Petitioner submits that when the State of West
Virginia adopted the Food Code 1, which contained
constitutional protections which rise to the liberty or
property interest needed to satisfy the Paul decision
and is analogous to the Marrero decision. This is
particularly true when the remainder of the Code is
utilized by a subdivision of the State to enforce Health
Department mandates and Respondents have

1

Section 207 Federal and State Cooperation and Section 205
Inspection of Food Establishments, under the Safe Food Act of
2005, appear to be the source of the Food Code in question here.
21 USC §301.

2

admitted that action taken here was “under color of
law.” The Respondent’s cannot have it both ways. 2
2. NEITHER THE 2005 FOOD CODE NOR THE
STATE
STATUTORY
SCHEME
FOR
HEALTH DEPARTMENTS HAS EVER
CONSIDERED
PUBLICATION,
THUS
THERE IS NO PUBLIC POLICY TO FAVOR
PUBLICATION AS AN ENFORCEMENT
TOOL.
Respondents urge the Court to consider strong
public policy considerations behind a publication rule.
Notwithstanding this argument, neither the State of
West Virginia in its statutory scheme, nor the 2005
Federal Food Code, ever considered publication of
restaurant inspections for an enforcement tool. It
simply has never been authorized. [See Complaint,
Appendix C, ¶9(a), pg. 50(a).] It also begs the
question, how does publication four months after the
fact protect the public? Or is it simply a penalty?
It has been admitted by an agent of the Health
Department that publication is part of their
enforcement tools. [See Appendix F, Admission No. 2,
pg. 92(a), Admission No. 9, pg. 95(a).] It has been
admitted by the respondents that prior to the
publication rule, they were limited to procedures
under state law by taking an offending party before a
magistrate for a hearing after notice. See W.Va. Code
2 If,

indeed, the Code is a guideline, then the provisions used by
the inspector to find demerits in Petitioner’s business premises
becomes debatable, and thus there is all the more reason for an
opportunity to test the matter in a hearing.

3

§16-6-9. [Appendix C, pg. 49(a) and Appendix F,
Admission No.28, pg. 101(a).] The Food Code also
establishes enforcement procedures with prior notice
and the opportunity for a hearing. [Appendix D, 2005
Food Code, pgs.57(a), 58(a) and 68(a)-81(a).]
Petitioner respectfully suggests that there is no
strong public policy consideration under the Food
Code nor state statute to override the opportunity for
a hearing.
3. THE
FOURTEENTH
AMENDMENT
PROMISES THE OPPORTUNITY FOR AN
ADMINISTRATIVE HEARING FOR THOSE
WHO SEEK TO CONTEST GOVERNMENT
SANCTIONS BEFORE THEY ARE IMPOSED
AND WOULD NOT UNDULY BURDEN THE
COURT SYSTEM.
Respondents would have this Court believe
that the West Virginia judicial system would become
overloaded if there was the necessity of prior notice
and the opportunity for a hearing in every case of
publication of a restaurant inspection. This is not
consistent with the manner which the Court has
understood due process protections. The mandate is
to provide the party to be sanctioned by government
with an opportunity to contest any penalty before it
happens. That is exactly what the Food Code does, it
provides the opportunity for an administrative
hearing before the sanctions of the Food Code are
imposed.
Administrative hearings will not
overburden the judicial system simply because they
are not in the judicial system. While, the Food Code
does provide for judicial review by way of appeal, it
does not mandate an appeal. Again, Petitioner
4

submits that there no unnecessary burden to the
State by providing the opportunity for a hearing.
CONCLUSION
We request that the Court grant the Petition
for Writ of Certiorari.
Respectfully Submitted,
GEORGE R. HIGINBOTHAM, JR.

Counsel of Record

SEAN J. SAWYER
FORREST A. BOWEN
HIGINBOTHAM & HIGINBOTHAM, PLLC
P.O. Box 567
Fairmont, West Virginia 26554
(304) 366-2900
petehigi@gmail.com

5

